No. 19-783

Supreme Court of the United States

NATHAN VAN BUREN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
R STREET INSTITUTE, PUBLIC KNOWLEDGE, LINCOLN NETWORK, ENGINE ADVOCACY, THE INNOVATION DEFENSE FOUNDATION, AND THE AMERICAN ANTITRUST
INSTITUTE AS AMICI CURIAE IN SUPPORT OF PETITIONER contains 7,060 words, exempting parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Respectfully submitted,
Dated: July 7, 2020
CHARLES DUAN
R STREET INSTITUTE
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Counsel for amici curiae

